                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A10040027                                                                      Page 1 of 1



                 We received an allegation that a researcher 1 refused to share data collected under an NSF
         award in response to a request from a member of the public. The researcher had collected the
         data as the CoPI on a collaborative award2 and published an article3 reporting summary statistics
         from his analysis. The allegation included questions regarding the validity of the published
         conclusions intimating concerns of data falsification.

                The institutions involved in the collaborative award did not include the CoPI' s primary
         employer. 4 The university5 with the ultimate responsibility for maintaining the research records,
         including the data in question, had not retained copies of any of the data the CoPI collected.
         When it was unable to produce the records in response to our request, the university asked the
         CoPI to provide it with copies of the data. He refused to do so.

                 We issued subpoenas to the CoPI and his primary employer, under whose logo he
         collected the survey data. In response the CoPI notified us that the data had been lost when a
         server was decommissioned and he had failed to transfer the data or make an archive copy. He
         provided a set of statistical printouts that somewhat corresponded with the published paper, but
         the printouts were inconclusive with respect to any assessment the underlying data. Given the
         absence of any additional data, the complexity imposed by the lack of direct authority of the
         university over the CoPI, and the university's failure to maintain the research records make
         further investigation untenable. .                        ·

                   Accordingly, this case is closed.




         2




         4




NSF OIG Form 2 (11102)
